No. 19-1280
IN THE

THE IDAHO DEPARTMENT OF CORRECTION, ET AL.,

Petitioners,
v.
ADREE EDMO,

Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in
Opposition filed by Respondent Adree Edmo contains 8,977 words,
excluding the parts of the document that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 10, 2020.

s/Barrett J. Anderson
BARRETT J. ANDERSON
COOLEY LLP
4401 Eastgate Mall
San Diego, CA 92121
(858) 550-6000

